HILARY S. ALLEN
MARK E. BIALICK
CATHERINE ALEXANDRA BRADY
JENNIFER K. CHRISTIAN
R. RYAN DELIGANS
DAVID B. DONCHIN
GERALD E. DURBIN, II
ANDREW M. GUNN†
THOMAS R. KENDRICK

JAMES K. LARIMORE
KATHERINE TAYLOR LOY
TIMOTHY L. MARTIN
GLEN MULLINS
LANE R. NEAL
E. EDD PRITCHETT, JR.
KACI L. TROJAN
JOSHUA L. YOUNG
Of Counsel:
STEPHEN A. SHERMAN
†Also admitted in Texas

September 22, 2020

VIA E-FILE
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

Old Republic Home Protection Company, Inc. vs. William B. Sparks, et al.
Case No. 20-237

Dear Mr. Harris:
I am counsel of record for Respondents, William B. Sparks and Donna Sparks. I previously
sent this letter via Federal Express, priority overnight delivery, for conventional filing on
September 18, 2020. To date the filing is not appearing on the Court’s docket. Counsel for
Respondent is now registered to file pleadings with this Court electronically. As such, and out of
an abundance of caution, Respondent submits the following Motion and request electronically.
The Petition for Writ of Certiorari in this case was filed on August 25, 2020, and a response
is due by September 28, 2020. Due to the significant disruptions of the COVID-19 pandemic, and
pursuant to Rule 30.4 of the rules of the Supreme Court and the Court's March 19, 2020 and April
15, 2020 Orders, Respondents respectfully request an extension of time to and including October
28, 2020, to file their Response to the Petition. Respondents’ counsel would note that one of his
partners recently was hospitalized for 9 days with COVID-19 and is still out recovering, and this
has resulted in the remainder of the partners, including the partners handling this Response, having
an extra burden and load. Counsel for Respondent has communicated with counsel for Petitioners,
who does not object to this request.
Very truly yours,

R. Ryan Deligans
KTL:ab\9998.0204\18068296_1\2020.09-18 Lt US Supreme Ct-requesting a 30 day extension to rsp to Pet for Cert
cc: Michael D. Leffel, Esq. Counsel of Record for Petitioners (via mail and email)
Aaron R. Wegrzyn, Esq. Counsel of Record for Petitioners (via mail and email)
Jay V. Varon, Esq. Counsel of Record for Petitioners (via mail and email)
Kendall E. Waters, Esq. Counsel of Record for Petitioners (via mail and email)
920 North Harvey, Oklahoma City, OK 73102-2610
Phone 405.235.9584 | www.dlb.net | Fax 405.235.0551

IN THE SUPREME COURT OF THE UNITED STATES
No. 20-237
OLD REPUBLIC HOME PROTECTION COMPANY, INC.,
Appellant
vs.
WILLIAM B. SPARKS, et al.,
Appellees.

CERTIFICATE OF SERVICE

I, R. Ryan Deligans, counsel for Appellees, hereby certify that on
this 19th day of September, 2020, I caused Appellees’ motion for extension
of time to file the response to petition for certiorari to be served on the
following via email by agreement of the parties:
Counsel for Petitioners
Michael D. Leffel
Foley & Lardner LLP
150 East Gilman Street
Madison, WI 53703
(608) 258-4216

Jay N. Varon
Counsel of Record
Foley & Lardner LLP
3000 K Street, N.W.
Washington, D.C. 20007
(202) 672-5380
jvaron@foley.com

Aaron R. Wegrzyn
Foley & Lardner LLP
777 East Wisconsin Avenue
Milwaukee, WI 53202
(414) 297-5156

Kendall E. Waters
Foley & Lardner LLP
555 South Flower Street
Los Angeles, CA 90071
(213) 972-4899

I further certify that all parties required to be served have been
served.

DURBIN, LARIMORE & BIALICK
By:
Mark E. Bialick, OBA #771
R. Ryan Deligans, OBA #19793
Katherine T. Loy, OBA #15358
920 North Harvey
Oklahoma City, OK 73102-2610
Telephone: (405) 235-9584
Facsimile: (405) 235-0551
mbialick@dlb.net
rdeligans@dlb.net
kloy@dlb.net
Attorneys for Appellees

